                    U.S. Department of Agriculture

                       Office of Inspector General
                        Financial & IT Operations




           Audit Report

FISCAL YEAR 2005 FEDERAL INFORMATION
  SECURITY MANAGEMENT ACT REPORT




                           Report No. 50501-5-FM
                                   October 2005
                  UNITED STATES DEPARTMENT OF AGRICULTURE

                           OFFICE OF INSPECTOR GENERAL


                                Washington D.C. 20250




October 6, 2005


The Honorable Joshua B. Bolten
Director
Office of Management and Budget
Eisenhower Executive Office Building
1650 Pennsylvania Avenue NW.
Washington, D.C. 20503


SUBJECT: Fiscal Year 2005 Federal Information Security Management
         Act Report (Audit Report No. 50501-5-FM)


Dear Director Bolten:

This report presents the results of our audits of the Department of Agriculture’s
(USDA) efforts to improve the management and security of its information
technology (IT) resources. The Department and its agencies have taken numerous
actions to improve the security over their IT resources; however, additional
actions are still needed toward establishing an effective security program within
USDA.

Sincerely,


/s/

Phyllis K. Fong
Inspector General
Executive Summary
Fiscal Year 2005 Federal Information Security Management Act Report

Results in Brief                The efforts of the Department’s Office of the Chief Information Officer
                                (OCIO) and the Office of Inspector General (OIG) in the past few years have
                                heightened program management’s awareness of the need to plan and
                                implement effective information technology (IT) security. Although the
                                agencies accelerated their efforts to comply with Federal information security
                                requirements during the fiscal year, we continued to find significant
                                weaknesses that can be attributed to management’s historic lack of
                                commitment to implementing an effective security program within their
                                respective agencies. While progress has been made there is still much to be
                                accomplished. Due to the significance of these weaknesses the Department
                                cannot be assured that its systems and data are adequately secured. As a
                                result, IT management and security remain a material weakness within the
                                Department.

                                The following summarizes the weaknesses discussed in exhibit A of this
                                report, in which OIG responds to the Office of Management and Budget’s
                                (OMB) questions as required by OMB Memorandum M-05-15, “Fiscal Year
                                2005 Reporting Instructions for the Federal Information Security.”

                                •    The Department does not have a reliable inventory of applications and
                                     general support systems from which to manage Department-wide IT
                                     security. Furthermore, the Department has not properly identified
                                     interfacing systems and networks to ensure service level agreements
                                     (SLA) require system security protection on all components interfacing
                                     with the Department’s network resources. 1

                                •    Agencies have not followed NIST guidance when preparing security
                                     plans, risk assessments, and disaster recovery plans. Agencies relied on
                                     the contractors to complete certification and accreditation
                                     documentation. 2 Despite the fact that supporting documentation was
                                     either missing or contained inaccurate or incomplete data that did not
                                     comply with Federal requirements, agency officials inappropriately
                                     accredited their systems based in part on the recommendation of the
                                     certifying officials.


1
  OMB Circular No. A-130 Section 8 requires agreements between service recipients and service providers. Appendix III further details
the agreements for system interconnection and information sharing. National Institute of Standards and Technology (NIST) Special
Publication 800-47, “Security Guide for Interconnecting Information Technology Systems,” provides in the Executive Summary that it
contains guides and samples for developing an Interconnection Security Agreement and a memorandum of understanding which are
forms of SLAs.
2
  Audit Report No. 50501-4-FM, Official Draft, “Review of the U.S. Department of Agriculture’s Certification and Accreditation
Efforts,” dated September 9, 2005.
USDA/OIG-A/50501-5-FM                                                                                                        Page i
                               •    Agencies had not reported to OCIO the risk impact levels based on
                                    Federal Information Processing Standards (FIPS) 199 for 65 of the 160
                                    systems we reviewed. These system risk impact levels are based on
                                    confidentiality, integrity, and availability of the data residing on the
                                    system. Further, our audits have shown that agencies did not ensure that
                                    the risk impact levels were consistent with FIPS requirements and that the
                                    risk ratings assigned remained consistent throughout all of the
                                    certification and accreditation documents.

                                •    Agencies reported a greater number of deficiencies from audits and self
                                     assessments than they had in prior years; however, additional controls
                                     are needed to ensure the accuracy and timeliness of Plan of Actions and
                                     Milestones (POA&M) database results. At the time of our review,
                                     agencies were still completing risk assessments so not all weaknesses
                                     identified by those risk assessments had been reported in the POA&Ms.
                                     We also found that the agencies we reviewed did not have controls in
                                     place to ensure that POA&M data reported to the Department’s Chief
                                     Information Officer was complete and accurate and identified (1) the
                                     tasks to be accomplished, (2) the resources required to accomplish the
                                     elements of the plan, or (3) any milestones in meeting the tasks.

                                •    During the period of October 1, 2004, through July 23, 2005, the
                                     Department followed its policies and procedures for identifying,
                                     reporting, and resolving security incidents, and successfully closed 144
                                     of the 202 fiscal year 2005 security incidents. Ninety-five percent of the
                                     security incidents involved malicious code, unauthorized access, and/or
                                     improper usage of network resources. However, testing disclosed that
                                     recent implementation of new technology on the U.S. Department of
                                     Agriculture telecommunications “backbone” severely degraded the
                                     Department’s ability to identify, report, and resolve security incidents.

                               •    Agencies had not timely completed patch management and infrastructure
                                    support services scans on network resources. Our analysis shows that
                                    security vulnerability patches were available for almost 6 years to as
                                    recent as 6 months that could have resolved agency system
                                    vulnerabilities. Despite the requirement that agencies and staff offices
                                    submit scanning and patch management assurances, only 5 of the 26
                                    agencies and staff offices submitted vulnerability scan reports to OCIO.
                                    No agencies submitted patch management assurances.

                               •    A complete and accurate listing of Internet Protocol (IP) addresses does
                                    not exist, even though OIG made a recommendation in fiscal year 2001 to
                                    create a consolidated listing. 3 In fiscal year 2006, OCIO again plans to


3
 Audit Report No. 50099-32-FM, “Government Information Security Reform Act – Fiscal Year 2001,” August 2001, page 28.
USDA/OIG-A/50501-5-FM                                                                                                   Page ii
                                         develop a system in order to adequately track IP addresses, patch
                                         management, and scanning of network resources.

                                     •    As of August 30, 2005, only 54 percent of USDA employees and
                                          contractors had sufficient security awareness training, this percentage
                                          includes employees with significant IT security responsibility.
                                          Additionally, agencies still do not adequately track training of their
                                          contractors.

                                     •    Agencies reported to OCIO that over 500 of their approximately 109,000
                                          employees had significant IT security responsibility. For employees
                                          with significant IT security, OCIO Cyber Security reported that role
                                          based training is deficient and needs to be adequately addressed.

                                     •    Agency’s Federal Information Security Management Act compliance
                                          self assessments data as of August 31, 2005, showed that only 5 of the 26
                                          agency and staff offices employed configuration management principles
                                          for their IT systems. Additionally, the Department-wide security
                                          configuration policy needs to be updated to include security policies for
                                          Windows 2003 Server, Cisco Router Internetwork Operating System,
                                          and Oracle software.

                                     Due to the significance of these issues, IT security remains a material
                                     internal control weakness for the Department.

Recommendation
In Brief                            This report presents the results of our audit work in assessing the security
                                    over the Department’s IT resources. The recommendations we made to
                                    correct the deficiencies identified in this evaluation have been documented in
                                    other agency reports and we will not make additional recommendations
                                    related to those conditions in this report. 4




4
 See exhibit B for a listing of those reports.
USDA/OIG-A/50501-5-FM                                                                                      Page iii
Abbreviations Used in This Report

APHIS             Animal and Plant Health Inspection Service
C&A               Certification and Accreditation
CCC               Commodity Credit Corporation
CIO               Chief Information Officer
DM                Departmental Manual
FCIC              Federal Crop Insurance Corporation
FIPS              Federal Information Processing Standards Publication
FISMA             Federal Information Security Management Act
FNS               Food Nutrition Service
FSA               Farm Service Agency
FS                Forest Service
GAO               Government Accountability Office (formerly the General Accounting Office)
GISRA             Government Information Security Reform Act
ISSPM             Information System Security Program Manager
IG                Inspector General
IP                Internet Protocol
IT                Information Technology
ITS               Information Technology Services, a division of the OCIO
MOU               Memorandum of Understanding
NASS              National Agricultural Statistics Service
NIST              National Institute of Standards and Technology
NITC              National Information Technology Center
NRCS              Natural Resources Conservation Service
OCFO              Office of the Chief Financial Officer
OCIO              Office of the Chief Information Officer
OMB               Office of Management and Budget
OIG               Office of Inspector General
POA&M             Plan of Actions and Milestones
RD                Rural Development
RMA               Risk Management Agency
SLA               Service Level Agreement
SP                Special Publication
TSO               Telecommunications Services Operations
US-CERT           United States Computer Emergencies Readiness Team
USDA              U.S. Department of Agriculture
UTN               Universal Telecommunications Network




USDA/OIG-A/50501-5-FM                                                                  Page iv
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iv

Background and Objectives ................................................................................................................... 1

Scope and Methodology.......................................................................................................................... 3

Exhibit A – OMB Reporting Requirements and USDA OIG Position .............................................. 4

Exhibit B – Audits Referenced to in the Report................................................................................. 21




USDA/OIG-A/50501-5-FM                                                                                                                     Page v
Background and Objectives
Background         Improving the overall management and security of information technology
                   (IT) resources is a top priority in the U.S. Department of Agriculture
                   (USDA). As technology has enhanced the ability to share information
                   instantaneously among computers and networks, it has also made
                   organizations more vulnerable to unlawful and destructive penetration and
                   disruption. Insiders with malicious intent, recreational and institutional
                   hackers, and attacks by intelligence organizations of other countries are just a
                   few of the threats that pose a risk to the Department’s critical systems and
                   data.

                   On December 17, 2002, the President signed into law the E-Government Act
                   (Public Law 107-347), which includes Title III, the Federal Information
                   Security Management Act (FISMA). FISMA permanently reauthorized the
                   framework laid out in the Government Information Security Reform Act
                   (GISRA) of 2000, which expired in November 2002. FISMA continues the
                   annual review and reporting requirements introduced in GISRA. In addition,
                   FISMA includes new provisions aimed at further strengthening the security
                   of the Federal Government’s information and information systems, such as
                   the development of minimum standards for agency systems. The National
                   Institute of Standards and Technology (NIST) has been tasked to work with
                   agencies in the development of those standards per its statutory role in
                   providing technical guidance to Federal agencies.

                   The Act supplements information security requirements established in the
                   Computer Security Act of 1987, the Paperwork Reduction Act of 1995, and
                   the Clinger-Cohen Act of 1996, and is consistent with existing information
                   security guidance issued by the Office of Management and Budget (OMB)
                   and NIST. Most importantly, however, the provisions consolidate these
                   separate requirements and guidance into an overall framework for managing
                   information security and establish new annual reviews, independent
                   evaluation, and reporting requirements to help ensure agency implementation
                   and both OMB and congressional oversight.

                   The legislation assigned specific responsibilities to OMB, agency heads,
                   Chief Information Officers (CIO), and Inspectors General (IG). OMB is
                   responsible for establishing and overseeing policies, standards, and
                   guidelines for information security. This includes the authority to approve
                   agency information security programs. OMB is also required to submit an
                   annual report to Congress summarizing results of agencies’ evaluations of
                   their information security programs.

                   Each agency must establish an agency-wide risk-based information security
                   program to be overseen by the agency CIO and ensure that information


USDA/OIG-A/50501-5-FM                                                                       Page 1
                   security is practiced throughout the lifecycle of each agency system.
                   Specifically, this program must include:

                        •   Periodic risk assessments that consider internal and external threats
                            to the integrity, confidentiality, and availability of systems, and to
                            data supporting critical operations and assets;

                        •   development and implementation of risk-based, cost-effective
                            policies and procedures to provide security protections for
                            information collected or maintained by or for the agency;

                        •   training on security responsibilities for information security
                            personnel and on security awareness for agency personnel;

                        •   periodic management testing and evaluation of the effectiveness of
                            policies, procedures, controls, and techniques;

                        •   a process for      identifying   and   remediating   any   significant
                            deficiencies;

                        •   procedures for detecting, reporting, and responding to security
                            incidents; and

                        •   an annual program review by agency program officials.

                   In addition to the responsibilities listed above, the Act requires each agency
                   to have an annual independent evaluation of its information security program
                   and practices, including control testing and compliance assessment. The
                   evaluations are to be performed by the agency IG or an independent
                   evaluator, and the results of these evaluations are to be reported to OMB.

Objectives         The audit objective was to form a basis for conclusion regarding the status of
                   USDA’s overall IT security program by:

                        •   Evaluating the effectiveness of the Office of the Chief Information
                            Officer’s (OCIO) oversight role of agency CIOs and FISMA
                            compliance;

                        •   determining whether agencies have maintained an adequate system
                            of internal controls over IT assets in accordance with FISMA and
                            other appropriate laws and regulations;

                        •   evaluating OCIO’s progress in establishing a Department-wide
                            security program; and

                        •   evaluating the agency and OCIO’s Plan of Actions and Milestones
                            consolidation and reporting process.
USDA/OIG-A/50501-5-FM                                                                      Page 2
Scope and Methodology
                             The scope of our review was Department-wide and agency audits relating to IT
                             completed during fiscal year 2005 through September 2005. We conducted this
                             audit in accordance with Government Auditing Standards.

                             Fieldwork for this audit was performed at the Department OCIO from June to
                             August 2005, and included a review of USDA’s e-Authentication solution
                             certification and accreditation documentation. In addition, the results of IT
                             control testing and compliance with laws and regulations performed by contract
                             auditors at three additional agencies are included in this report. Further, the
                             results of our most recent general control and application control reviews were
                             considered and incorporated into this report. In total, our fiscal year 2005 audit
                             work covered 10 agencies and staff offices: Animal and Plant Health Inspection
                             Service (APHIS), Food Nutrition Service (FNS), Forest Service (FS), Farm
                             Service Agency (FSA) (includes Commodity Credit Corporation (CCC)),
                             National Agricultural Statistics Service (NASS), Natural Resources
                             Conservation Service (NRCS), Office of the Chief Financial Officer (OCFO),
                             OCIO (includes Information Technology Services (ITS), National Information
                             Technology Center (NITC), Telecommunication Services Operations (TSO)),
                             Rural Development (RD), and Risk Management Agency (RMA) (includes
                             Federal Crop Insurance Corporation (FCIC)). These agencies and staff offices
                             operate approximately 302 of the estimated 460 general support and major
                             application systems within the Department. 5

                             To accomplish our audit objectives, we performed the following procedures:

                                  •    Consolidated the results and issues from our prior IT security audit work.
                                       Our audit work consisted primarily of audit procedures found in the U.S.
                                       Government Accountability Office (GAO) Financial Information System
                                       Control Audit Manual;

                                  •    evaluated OCIO’s progress in implementing recommendations to correct
                                       material weaknesses in prior OIG and GAO audit reports; and

                                  •    gathered the necessary information to address the specific reporting
                                       requirements outlined in Office of Management and Budget’s (OMB)
                                       Memorandum No. M-05-15, dated June 13, 2005.




5
 The Department identified 460 systems on its certification and accreditation spreadsheet dated August 1, 2005. OCIO's data are agency-
supplied and have not been verified or audited. Based on independent auditor verification at three agencies, OIG identified at least
another 38 systems not included in the 460. Hence, we question the accuracy and reliability of the total number of systems reported.
USDA/OIG-A/50501-5-FM                                                                                                         Page 3
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                           Exhibit A – Page 1 of 17

Section C: Inspector General Questions

1. As required in the Federal Information Security Management Act (FISMA), the Inspector
   General (IG) shall evaluate a representative subset of systems, including information systems
   used or operated by an agency or by a contractor of an agency or other organization on
   behalf of an agency. By Federal Information Processing Standards Publication (FIPS) 199
   risk impact level (high, moderate, low, or not categorized) and by bureau, identify the
   number of systems reviewed in this evaluation for each classification below (a., b., and c.). To
   meet the annual requirements for conducting National Institute of Standards and Technology
   (NIST) Special Publication (SP) 800-26 review, agencies can (1) continue to use NIST SP 800-
   26, or (2) conduct a self-assessment against the controls found in NIST SP 800-53,
   “Recommended Security Controls for Federal Information Systems.” Agencies are
   responsible for ensuring the security of information systems used by a contractor of their
   agency or other organization on behalf of their agency; therefore, self reporting by
   contractors does not meet the requirements of law. Self reporting by another Federal agency,
   for example, a Federal service provider, may be sufficient. Agencies and service providers
   have a shared responsibility for FISMA compliance.

    The U.S. Department of Agriculture (USDA) has approximately 26 agency and staff offices and
    over 460 systems. 6 We conducted reviews at 10 agencies that operated an estimated 302 systems.
    We reviewed 160 of the 302 systems. 7 Three of the systems selected for review were contractor
    operated systems. We used FIPS 199 risk impact levels for these systems as reported by OCIO.
    However, during our review of the Department’s C&A efforts, we determined that system risk
    ratings based on confidentiality, integrity, and availability of the data residing on the system were
    inconsistent with FIPS requirements and agencies did not ensure that the risk ratings they assigned
    remained consistent throughout all of the C&A documents. 8 We found that agencies had not
    reported to OCIO the risk levels based on FIPS 199 for 65 of the 160 systems reviewed. Without a
    proper risk level assignment, agencies cannot design adequate risk-based security programs to
    ensure appropriate security controls are in place to protect confidentiality, integrity, and availability
    of their information systems.

    To the extent that agencies use the Department’s centralized data centers, our reviews help ensure
    that those centers take the necessary actions to meet the requirements of the Security Act, Office of




6
  The Department identified 460 systems on its certification and accreditation (C&A) spreadsheet dated August 1, 2005. Office of the
Chief Information Officer’s (OCIO) data are agency-supplied and have not been verified or audited. Based on independent auditor
verification at three agencies, the Office of Inspector General (OIG) identified at least another 38 systems not included in the 460.
Hence, we question the accuracy and reliability of the total number of systems reported.
7
  The depth and breadth of our reviews varied by audit.
8
  Audit Report No. 50501-4-FM, Official Draft, “Review of the U.S. Department of Agriculture’s Certification and Accreditation
Efforts,” dated September 9, 2005.
USDA/OIG-A/50501-5-FM                                                                                                       Page 4
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                          Exhibit A – Page 2 of 17


  Management and Budget (OMB), and NIST guidelines. Agencies primarily use OIG audits to
  identify weaknesses in their management and oversight of contractors.

  Agencies also rely on our reviews of the Department’s centralized data centers to ensure that the
  Security Act, OMB, and NIST guidelines are followed by those centers.

  Thirteen of the 26 agencies and staff offices did not meet FISMA requirements to provide security
  self assessments to the OCIO. Only 2 of the 26 agencies and staff offices met FISMA
  requirements to use NIST SP 800-26 to assess all of their systems and their overall security
  program. The remaining 11 agencies used NIST SP 800-26 to review either major applications or
  their overall security program, but did not assess both as required by FISMA.

  Based on the OIG reviews performed throughout fiscal year 2005, we continue to find that not all
  agencies have followed NIST guidance when preparing security plans, risk assessments, and
  disaster recovery plans. As reported last year, and again this year during our audit of the
  Department’s C&A efforts, the Department does not have a reliable inventory of applications and
  general support systems from which to manage Department-wide information technology (IT)
  security. The Department relies on agencies to provide a comprehensive system inventory;
  however, with limited resources, OCIO is unable to verify the accuracy or reliability of those
  agency-provided inventories. OIG was not involved in the development and verification of agency
  IT system inventory. While we agree that OCIO’s current list of major applications provides a
  starting point, OCIO needs to be fully aware of all applications and general support systems that
  reside on the Department’s network to ensure that agencies are in compliance with OMB and
  FISMA requirements, and to effectively manage the Department’s security program.




USDA/OIG-A/50501-5-FM                                                                           Page 5
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                             Exhibit A – Page 3 of 17


2. For each part of this question, identify actual performance in fiscal year 2005 by risk impact
   level and bureau, in the format provided. From the representative subset of systems
   evaluated, identify the number of systems which have completed the following: have a
   current C&A, a contingency plan tested within the past year, and security controls tested
   within the past year.

                                                   Question 1.                                      Question.2.
                                                                                                                           2.c.
                                                                                                       2.b.            Number of
                                                                                                   Number of       systems for which
                                                       1.b.         1.c.                       systems for which contingency plans
                                                   Fiscal year  Fiscal year         2.a         security controls have been tested
    Bureau Name
                                       1.a.           2005      2005 Total      Number of       have been tested in accordance
       (OIG
                    FIPS Risk   Fiscal year 2005 Contractor Number of systems certified and evaluated in with policy and
     Reviewed)
                   Impact Level Agency Systems Systems 9         Systems     and accredited 10    the last year         guidance
                                             #              #                       Percent of          Percent of         Percent of
                                Total # 11 Rev. 12 Total # Rev Total # # Rev Total # Total Total # Total Total # Total
1. APHIS                      High   9        0                    9       0      7       78%       7      78%        0       0%

                        Moderate     10       1                    10      1      6       60%       6      60%        0       0%

                              Low    12       0                    12      0      9       75%       9      75%        0       0%

                  Not Categorized    5        0                    5       0      4       80%       4      80%        0       0%

                  Sub-total          36       1                    36      1     26       72%      26      72%        0       0%

2. FNS                        High   11       2       1      1     11      2      8       73%       8      73%        1       9%

                        Moderate     1        0                    1       0      1      100%       1      100%       0       0%

                              Low    0        0                    0       0      0       0%        0       0%        0       0%

                  Not Categorized    0        0                    0       0      0       0%        0       0%        0       0%

                  Sub-total          12       2                    12      2      9       75%       9      75%        1       8%

3. FS                         High   4        4       2      2     4       4      4      100%       4      100%       0       0%

                        Moderate     6        6                    6       6      6      100%       6      100%       0       0%

                              Low    5        5                    5       5      5      100%       5      100%       0       0%

                  Not Categorized    62       62                   62     62     62      100%      62      100%       0       0%

                  Sub-total          77       77                   77     77     77      100%      77      100%       0       0%
4. FSA
                                     48       48                   48     48     18       38%      20      42%       17      35%
(includes CCC)                High
                        Moderate     11       11                   11     11      0       0%        0       0%        0       0%

                              Low    5        5                    5       5      0       0%        0       0%        0       0%

                  Not Categorized    0        0                    0       0      0       0%        0       0%        0       0%

                  Sub-total          64       64                   64     64     18       28%      20      31%       17      27%




9
  Contractor systems identified in question 1b are included in question 1a totals.
10
   Based on numbers reported to OCIO; however, OIG’s review of C&As determined that the C&A process was ineffectively
implemented and the departmental oversight of the C&A process could be significantly improved. We determined that agencies did not
accurately report the number of systems accredited. OIG did not verify the numbers reported by OCIO. Audit Report No. 50501-4-FM,
Official Draft, “Review of the U.S. Department of Agriculture’s Certification and Accreditation Efforts,” dated September 9, 2005.
11
   Based on independent auditor verification and may not be consistent with the number of systems reported by OCIO.
12
   Reviews conducted from October 1, 2004, through August 31, 2005.
USDA/OIG-A/50501-5-FM                                                                                                                   Page 6
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                            Exhibit A – Page 4 of 17
                                                 Question 1.                                       Question.2.
                                                                                                                          2.c.
                                                                                                      2.b.            Number of
                                                                                                  Number of       systems for which
                                                      1.b.         1.c.                       systems for which contingency plans
                                                  Fiscal year  Fiscal year         2.a         security controls have been tested
Bureau Name
                                      1.a.           2005      2005 Total      Number of       have been tested in accordance
   (OIG
                   FIPS Risk   Fiscal year 2005 Contractor Number of systems certified and evaluated in with policy and
 Reviewed)                                                                                 13
                  Impact Level Agency Systems       Systems     Systems     and accredited       the last year         guidance
                                            #              #                       Percent of          Percent of         Percent of
                               Total # 14 Rev. 15 Total # Rev Total # # Rev Total # Total Total # Total Total # Total
5. NASS                      High   6        1                    6       1      6      100%       6      100%       0       0%

                       Moderate     0        0                    0       0      0       0%        0       0%        0       0%

                             Low    0        0                    0       0      0       0%        0       0%        0       0%

                 Not Categorized    0        0                    0       0      0       0%        0       0%        0       0%

                 Sub-total          6        1                    6       1      6      100%       6      100%       0       0%

6. NRCS                      High   0        0                    0       0      0       0%        0       0%        0       0%

                       Moderate     4        1                    4       1      4      100%       4      100%       0       0%

                             Low    0        0                    0       0      0       0%        0       0%        0       0%

                 Not Categorized    0        0                    0       0      0       0%        0       0%        0       0%

                 Sub-total          4        1                    4       1      4      100%       4      100%       0       0%

7. OCFO                      High   26       2                    26      2      26     100%      26      100%       0       0%

                       Moderate     1        0                    1       0      0       0%        0       0%        0       0%

                             Low    3        0                    3       0      3      100%       3      100%       0       0%

                 Not Categorized    1        0                    1       0      1      100%       1      100%       0       0%

                 Sub-total          31       2                    31      2      30      97%      30      97%        0       0%
8. OCIO
(includes ITS,                      12       1                    12      1      10      83%      10      83%        1       8%
NITC, and TSO)               High
                       Moderate     11       1                    11      1      11     100%      11      100%       2      18%

                             Low    2        0                    2       0      2      100%       2      100%       0       0%

                 Not Categorized    8        2                    8       2      0       0%        0       0%        0       0%

                 Sub-total          33       4                    33      4      23      70%      23      70%        3       9%

9.RD                         High   6        4                    6       4      6      100%       6      100%       0       0%

                       Moderate     2        0                    2       0      2      100%       2      100%       0       0%

                             Low    12       0                    12      0      12     100%      12      100%       0       0%

                 Not Categorized    0        0                    0       0      0       0%        0       0%        0       0%

                 Sub-total          20       4                    20      4      20     100%      20      100%       0       0%




13
   Based on numbers reported to OCIO; however, OIG’s review of C&As determined that the C&A process was ineffectively
implemented and the departmental oversight of the C&A process could be significantly improved. We determined that agencies did not
accurately report the number of systems accredited. OIG did not verify the numbers reported by OCIO. Audit Report No. 50501-4-FM,
Official Draft, “Review of the U.S. Department of Agriculture’s Certification and Accreditation Efforts,” dated September 9, 2005.
14
   Based on independent auditor verification and may not be consistent with the number of systems reported by OCIO.
15
   Reviews conducted from October 1, 2004, through August 31, 2005.
USDA/OIG-A/50501-5-FM                                                                                                                  Page 7
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                             Exhibit A – Page 5 of 17
                                                   Question 1.                                      Question.2.
                                                                                                                           2.c.
                                                                                                       2.b.            Number of
                                                                                                   Number of       systems for which
                                                       1.b.         1.c.                       systems for which contingency plans
                                                   Fiscal year  Fiscal year         2.a         security controls have been tested
Bureau Name
                                       1.a.           2005      2005 Total      Number of       have been tested in accordance
   (OIG
                    FIPS Risk   Fiscal year 2005 Contractor Number of systems certified and evaluated in with policy and
 Reviewed)                                                                                  16
                   Impact Level Agency Systems       Systems     Systems     and accredited       the last year         guidance
                                             #              #                       Percent of          Percent of         Percent of
                                Total # 17 Rev. 18 Total # Rev Total # # Rev Total # Total Total # Total Total # Total
10.RMA
                                      7       3                    7       3      7      100%       7      100%       0       0%
(includes FCIC)               High
                          Moderate    0       0                    0       0      0       0%        0       0%        0       0%

                              Low     0       0                    0       0      0       0%        0       0%        0       0%

                  Not Categorized    12       1                    12      1      10      83%      10      83%        0       0%

                  Sub-total          19       4                    19      4      17      90%      17      90%        0       0%

  USDA Totals                 High   129      65      3      3    129     65      92      71%      94      73%       19      15%

                          Moderate   46       20                   46     20      30      65%      30      65%        2       4%

                              Low    39       10                   39     10      31      79%      31      79%        0       0%

                  Not Categorized    88       65                   88     65      77      88%      77      88%        0       0%

                  Total              302     160      3      3    302     160    230      76%      232     77%       21       7%




3. In the format below, evaluate the agency’s oversight of contractor systems, and agency
   system inventory.

     (a) The agency performs oversight and evaluation to ensure information systems used or
         operated by a contractor of the agency or other organization on behalf of the agency meet
         the requirements of FISMA, OMB policy and NIST guidelines, national security policy,
         and agency policy. Self-reporting of NIST SP 800-26 requirements by a contractor or
         other organization is not sufficient; however, self-reporting by another Federal agency
         may be sufficient. (OIG’s response is underlined below.) Response Categories:

                          •   Rarely, for example, approximately 0-50% of the time
                          •   Sometimes, for example, approximately 51-70% of the time
                          •   Frequently, for example, approximately 71-80% of the time
                          •   Mostly, for example, approximately 81-95% of the time
                          •   Almost Always, for example, approximately 96-100% of the time


16
   Based on numbers reported to OCIO; however, OIG’s review of C&As determined that the C&A process was ineffectively
implemented and the departmental oversight of the C&A process could be significantly improved. We determined that agencies did not
accurately report the number of systems accredited. OIG did not verify the numbers reported by OCIO. Audit Report No. 50501-4-FM,
Official Draft, “Review of the U.S. Department of Agriculture’s Certification and Accreditation Efforts,” dated September 9, 2005.
17
   Based on independent auditor verification and may not be consistent with the number of systems reported by OCIO.
18
   Reviews conducted from October 1, 2004, through August 31, 2005.
USDA/OIG-A/50501-5-FM                                                                                                                   Page 8
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                              Exhibit A – Page 6 of 17



     OCIO relies on agencies to perform oversight and evaluation to ensure information systems used or
     operated by a contractor of the agency or other organization on behalf of the agency meet the
     requirements of FISMA, OMB, and NIST. USDA employs contractors in many aspects of its
     system operations. Contractors are used for network administration, system development, and as
     system administrators. In conducting our agency reviews, testing of contractor operations has been
     limited to access controls, security clearances, security awareness training, and oversight by the
     agencies of contractor activities. Based on our reviews, we have no evidence that the agencies
     have adequately employed methods to ensure that contractor provided services meet the
     requirements of the Security Act, OMB, and NIST guidelines.

     (b) The agency has developed an inventory of major information systems (including major
         national security systems) operated by or under the control of such agency, including an
         identification of the interfaces between each such system and all other systems or
         networks, including those not operated by or under the control of the agency. (OIG’s
         response is underlined below.) Response Categories:

                  •   Approximately 0-50% complete
                  •   Approximately 51-70% complete
                  •   Approximately 71-80% complete
                  •   Approximately 81-95% complete
                  •   Approximately 96-100% complete

     Based on our reviews, we have documented evidence that the Department does not have a reliable
     inventory of applications and general support systems from which to manage Department-wide IT
     security and has not properly identified interfacing systems and networks to ensure Service Level
     Agreements (SLA) require system security protection on all components interfacing with the
     Department’s network resources. 19 The Department relies on agencies to provide a comprehensive
     list; however, OCIO is unable to verify the accuracy or reliability of those agency-provided
     inventories due to limited resources. OIG was not involved in the development and verification of
     agencies IT system inventories and their interfacing systems and networks. While we agree that
     OCIO’s current list of major applications provides a starting point, OCIO needs to be fully aware
     of all applications and general support systems that reside on the Department’s network to ensure
     that agencies are in compliance with OMB and FISMA requirements, and to effectively manage
     the Department’s security program.

     During our reviews, we determined formal agreements between systems that interconnected did not
     exist.     We found one agency had not executed a SLA with OCIO for




19
 Audit Report No. 50501-4-FM, Official Draft, “Review of the U.S. Department of Agriculture’s Certification and Accreditation
Efforts,” dated September 9, 2005.
USDA/OIG-A/50501-5-FM                                                                                               Page 9
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                     Exhibit A – Page 7 of 17



     the e-Authentication security interconnections even though OMB and NIST require agreements
     between service recipients and service providers. 20 At another agency, the system security plan
     stated that SLAs with interconnecting systems were pending. In both instances, the systems were
     fully accredited.

     (c) OIG generally agrees with the Chief Information Officer (CIO) on the number of agency
         owned systems. (OIG’s response is underlined.) Yes or No.

     As reflected in our response to question 3.b., we did not generally agree with the number of agency
     owned systems.

     (d) OIG generally agrees with the CIO on the number of information systems used or
         operated by a contractor of the agency or other organization on behalf of the agency.
         (OIG’s response is underlined.) Yes or No.

     As stated in our response to question 3.a. above, the number of systems within the Department
     (both Department or contractor run) can not be relied upon until OCIO validates the number of
     systems within the department and establishes controls to maintain an accurate inventory.

     (e) The agency inventory is maintained and updated at least annually. (OIG’s response is
         underlined.) Yes or No.

     Our reviews have found that OCIO updates its system inventory as needed; however, we question
     the accuracy of the system inventory because, as mentioned in response to question 3.a., OCIO
     relies on the agencies to report system inventory. Further, OCIO is unable to verify the accuracy or
     reliability of those agency-provided inventories due to limited resources.

     (f) The agency has completed system e-Authentication risk assessments. (OIG’s response is
         underlined.) Yes or No.

     During our review of the e-Authentication C&A documentation, we determined that limited system
     e-Authentication risk assessments have been completed. We determined that e-Authentication
     does not have a configuration management plan as required by Departmental Manual (DM) 3520-
     001. Currently there are 127 USDA applications encompassing 17 agencies that rely on e-
     Authentication for single sign-on capabilities, with an additional 60 USDA applications and 4




20
  OMB Circular No. A-130, Section 8, requires agreements between service recipients and service providers. Appendix III further details
the agreements for system interconnection and information sharing. NIST SP 800-47, “Security Guide for Interconnecting Information
Technology Systems,” provides in the Executive Summary that it contains guides and samples for developing an Interconnection
Security Agreement and a MOU which are forms of SLAs.
USDA/OIG-A/50501-5-FM                                                                                                       Page 10
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                            Exhibit A – Page 8 of 17


   Federal Government applications in the process of integrating to e-Authentication. During our
   review of USDA’s e-Authentication C&A documentation, we determined that the risk assessment
   was geared to only two FSA applications while the security plan included another 22 applications
   belonging to FSA, RD, and NRCS. Additionally, the risk assessment did not consider all
   applicable laws and regulations related to system security such as NIST, OMB Circular No. A-130,
   The Computer Security Act, or the Government Information Security Reform Act (superseded by
   the Federal Information Security Management Act of 2002). Without taking these laws and
   regulations into consideration, OCIO may not identify all the weaknesses within e-
   Authentication.

   OCIO did not have a MOU or SLA with any interconnecting systems and e-Authentication.
   Without controls over interconnecting systems, OCIO cannot be assured that e-Authentication is
   being appropriately protected. This could result in a compromise of all connected systems and data
   they store, process, or transmit.

4. Through this question, and in the format provided below, assess whether the agency has
   developed, implemented, and is managing an agency wide Plan of Actions and Milestones
   (POA&M) process. Evaluate the degree to which the following statements reflect the status in
   your agency by choosing from the responses provided in the drop down menu. If appropriate
   or necessary, include comments in the area provided below.

   a. The POA&M is an agency wide process, incorporating all known IT security weaknesses
      associated with information systems used or operated by the agency or by a contractor of
      the agency or other organization on behalf of the agency. (OIG’s response is underlined
      below.) Response Categories:

              •   Rarely, for example, approximately 0-50% of the time
              •   Sometimes, for example, approximately 51-70% of the time
              •   Frequently, for example, approximately 71-80% of the time
              •   Mostly, for example, approximately 81-95% of the time
              •   Almost Always, for example, approximately 96-100% of the time




USDA/OIG-A/50501-5-FM                                                                           Page 11
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                     Exhibit A – Page 9 of 17



  b. When an IT security weakness is identified, program officials (including CIOs, if they
     own or operate a system) develop, implement, and manage POA&Ms for their system(s).
     (OIG’s response is underlined below.) Response Categories:

            •   Rarely, for example, approximately 0-50% of the time
            •   Sometimes, for example, approximately 51-70% of the time
            •   Frequently, for example, approximately 71-80% of the time
            •   Mostly, for example, approximately 81-95% of the time
            •   Almost Always, for example, approximately 96-100% of the time

  c. Program officials, including contractors, report to the CIO on a regular basis (at least
     quarterly) on their remediation progress. (OIG’s response is underlined below.)
     Response Categories:

            •   Rarely, for example, approximately 0-50% of the time
            •   Sometimes, for example, approximately 51-70% of the time
            •   Frequently, for example, approximately 71-80% of the time
            •   Mostly, for example, approximately 81-95% of the time
            •   Almost Always, for example, approximately 96-100% of the time

  d. The CIO centrally tracks, maintains, and reviews POA&M activities on at least a
     quarterly basis. (OIG’s response is underlined below.) Response Categories:

            •   Rarely, for example, approximately 0-50% of the time
            •   Sometimes, for example, approximately 51-70% of the time
            •   Frequently, for example, approximately 71-80% of the time
            •   Mostly, for example, approximately 81-95% of the time
            •   Almost Always, for example, approximately 96-100% of the time

  e. OIG findings are incorporated into the POA&M process. (OIG’s response is underlined
     below.) Response Categories:

            •   Rarely, for example, approximately 0-50% of the time
            •   Sometimes, for example, approximately 51-70% of the time
            •   Frequently, for example, approximately 71-80% of the time
            •   Mostly, for example, approximately 81-95% of the time
            •   Almost Always, for example, approximately 96-100% of the time




USDA/OIG-A/50501-5-FM                                                                    Page 12
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                           Exhibit A – Page 10 of 17



  f. POA&M process prioritizes IT security weaknesses to help ensure significant IT security
     weaknesses are addressed in a timely manner and receive appropriate resources. (OIG’s
     response is underlined below.) Response Categories:

             •   Rarely, for example, approximately 0-50% of the time
             •   Sometimes, for example, approximately 51-70% of the time
             •   Frequently, for example, approximately 71-80% of the time
             •   Mostly, for example, approximately 81-95% of the time
             •   Almost Always, for example, approximately 96-100% of the time

  Our review of OCIO’s POA&M process determined that agencies were generally incorporating all
  known IT security weaknesses into the POA&M database. We found that OCIO established a
  deliverable schedule for agencies to follow to ensure the timely updates of the POA&M database.
  Further, we found that agencies reported a greater number of deficiencies from audits and self
  assessments than they had in prior years; however, additional controls are needed to ensure the
  accuracy and timeliness of POA&M database results. At the time of our review, agencies were still
  completing risk assessments so not all weaknesses identified by those risk assessments had been
  reported in the POA&Ms. We also found that the agencies we reviewed did not have controls in
  place to ensure that POA&M data reported to the Department’s CIO were complete and accurate.
  For instance, we noted several POA&Ms that were identified as ”complete” because the agency
  lacked the time and resources and/or funding to complete such actions, which included
  development of a system development life cycle process, conducting a business impact analysis,
  and updating and testing contingency plans. Our review showed that the POA&M did not identify
  (1) the tasks to be accomplished; (2) the resources required to accomplish the elements of the plan;
  or (3) any milestones in meeting the tasks.

  Based on our analysis of previous audit findings and the POA&Ms, we continued to find that
  agencies were experiencing logical access control weaknesses because policies and procedures
  were not in place to (1) timely remove user accounts when no longer needed, (2) periodically
  reconcile user accounts to current employees and contractors, and (3) assign users only those
  permissions needed to perform their job responsibilities. In addition, agencies had inadequate
  controls over the following:

     •   Physical access to computer systems and critical network components,
     •   network resource scans,
     •   risk assessments,
     •   contingency plans,
     •   contingency plan testing,
     •   patch management,


USDA/OIG-A/50501-5-FM                                                                           Page 13
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                             Exhibit A – Page 11 of 17


         •   system documentation and change management,
         •   system development life cycle procedures,
         •   system security test plans,
         •   MOU or SLA with interconnecting systems, and
         •   oversight of partnering organizations.

5. OIG assessment of the C&A process. OMB is requesting IGs to provide a qualitative
   assessment of the agency’s C&A process, including adherence to existing policy, guidance,
   and standards. Agencies shall follow NIST SP 800-37, “Guide for the Security Certification
   and Accreditation of Federal Information Systems,” (May, 2004) for C&A work initiated
   after May, 2004. This includes use of the FIPS 199 (February, 2004), “Standards for Security
   Categorization of Federal Information and Information Systems,” to determine an impact
   level, as well as associated NIST documents used as guidance for completing risk assessments
   and security plans. Assess the overall quality of the Department's C&A process. (OIG’s
   response is underlined below.) Response Categories:

             •    Excellent
             •    Good
             •    Satisfactory
             •    Poor
             •    Failing

     Despite repeated audit disclosures and pledges of corrective action, the Department and its
     agencies did not address OMB requirements that major applications and general support systems
     be certified and accredited until OMB made a specific call in its passback language for compliance
     by the end of fiscal year 2004. At that time the Department implemented an ambitious process and
     schedules to meet the stringent timeframes. Discussions with agency personnel disclosed that they
     relied on the contractors completing the documentation to adequately meet the requirements.
     Given the timeframes allotted and the absence of prior accreditations, the agencies could not have
     produced complete, accurate, and trustworthy information given the depth and breadth of
     documentation required to adequately support each accreditation. 21




21
 Audit Report No. 50501-4-FM, Official Draft, “Review of the U.S. Department of Agriculture’s Certification and Accreditation
Efforts,” dated September 9, 2005.
USDA/OIG-A/50501-5-FM                                                                                              Page 14
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                   Exhibit A – Page 12 of 17



6. Configuration Management.

     a. Is there an agency-wide security configuration policy? (OIG’s response is underlined.)
        Yes or No.

     The Department-wide security configuration policy needs to be updated. The Department does not
     have updated configuration guides available for all of the products listed in the table below.

     We determined that the configuration policy needs to be revised to include security policies for
     Windows 2003 Server, Cisco Router Internetwork Operating System (IOS), and Oracle software.
     We determined that OCIO provided the agencies security assessment guidelines for Windows XP
     Professional, Windows NT, Windows 2000 Professional, Windows 2000 Server, Solaris, HP-UX,
     and Linux operating systems. 22 In addition, the Department has similar security assessment
     guidelines for mainframe, classified systems, personal electronic devices, telecommunications,
     WEB farms, and AS400s. Security guidelines are also in force for wireless devices, laptops,
     physical security, privacy of systems, classified systems, and information systems security.

     Furthermore, we found that only 15 of 26 agencies provided OCIO their FISMA compliance self
     assessments data by August 31, 2005. One of the questions on the compliance self assessment asks
     whether the agency employs IT configuration management principles. We found that only 5 of the
     26 agencies and staff offices employed configuration management principles for all of their IT
     systems.

                                    Rarely, or on     Sometimes, or on   Frequently, or on   Mostly, or on
                                    approximately     approximately      approximately       approximately     Almost Always, or on
                                    0-50% of the      51-70% of the      71-80% of the       81-95% of the     approximately 96-
                                    systems running   systems running    systems running     systems running   100% of the systems
      Product                       this software     this software      this software       this software     running this software
1     Window XP Professional                 X
2     Windows NT                             X
3     Windows 2000 Professional              X
4     Windows 2000 Server                    X
5     Windows 2003 Server                    X
6     Solaris                                X
7     HP-UX                                  X
8     Linux                                  X
9     Cisco Router IOS                       X
10    Oracle                                 X
11    Other (see narrative above)            X




22
  DM 3540-002, “Risk Assessment and Security Checklists,” Chapter 8, Part 2, August 19, 2004.
USDA/OIG-A/50501-5-FM                                                                                                     Page 15
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                          Exhibit A – Page 13 of 17



7. Indicate whether or not the following policies and procedures are in place at your agency. If
   appropriate or necessary, include comments in the area provided below.

     a. The agency follows documented policies and procedures for identifying and reporting
        incidents internally. (OIG’s response is underlined.) Yes or No.

     From October 1, 2004, through July 23, 2005, OCIO followed its documented policies and
     procedures for identifying, reporting, and resolving incidents. 23 As of July 27, 2005, we
     determined that 144 of the 202 (71 percent) fiscal year 2005 security incidents had been
     successfully closed. Based on OIG prior audit recommendations, OCIO is in the process of
     revising its incident tracking process to enhance the tracking and monitoring of security incidents
     within the Department, and it is scheduled to be complete by September 30, 2005. 24 The new
     process should aid in quick identification of agencies that have not adequately addressed security
     incidents and allow for frequent follow up from OCIO Cyber Security staffs to agencies that are
     not timely in resolving security incidents.

     The Department’s recent implementation of new technology on the USDA “backbone” called
     Universal Telecommunications Network (UTN), has degraded the ability of OCIO to identify,
     report, and resolve security incidents. On July 23, 2005, USDA converted to the UTN and USDA,
     for a significant period of time, no longer had adequate intrusion detection sensors in place for the
     entire network. UTN was not designed to capture the number of intrusion attempts and specific
     information about the security incident to help resolve it; hence, with the implementation of UTN,
     the internal monitoring and reporting process was degraded. One feature of the UTN was to block
     certain types of potential intrusions before they hit the Department’s backbone. However, because
     OCIO officials managing the UTN implementation were unaware of the reporting requirement of
     FISMA, they did not ensure the contractor had the ability to report on blocked attempts, which
     should also be reported under FISMA.

     Our audit work to date has identified several incidents that went undetected by the UTN contractor.
     At least two website defacements were reported by United States Computer Emergencies
     Readiness Team (US-CERT) before Department officials became aware of it. Another problem
     noted with the contractor’s reporting is its inability to detect and/or block peer-to-peer connections.
     Prior to implementation of the UTN, OCIO identified and reported several instances of peer-to-
     peer software used to download copyright or pornographic materials. During this review, OIG
     performed various tests, including testing of the Internet content filters. OIG’s testing activities
     were never detected, even though UTN officials explicitly stated that these were being monitored.

     Additionally, security vulnerability patches were available for almost 6 years to as recent as 6
     months that could have resolved identified system vulnerabilities at the agencies we reviewed.

23
  DM 3505-001, Chapter 1 – Part 1, “Incident Response Procedures,” dated July 15, 2004.
24
  At the end of fieldwork, this tracking process had not been implemented.
USDA/OIG-A/50501-5-FM                                                                                          Page 16
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                               Exhibit A – Page 14 of 17


     Completion of timely patch management and scans would aid in identifying and possibly
     preventing security incidents. Currently, OCIO tracks patch management and Internet Security
     Systems scans via the receipt of assurances from the agencies and this information is put into
     separate spreadsheets. Despite the requirement that agencies and staff offices submit scanning and
     patch management assurance statements to OCIO monthly, only five agencies submitted
     vulnerability scan reports to OCIO. However, no agency submitted patch management assurances.

     Even though OIG made a recommendation in fiscal year 2001, we continue to find that OCIO has
     not developed a system to adequately track Internet Protocol (IP) addresses. 25 On August 31,
     2005, OCIO Cyber Security officials stated that a waiver was signed to contract for the
     development of a database to track IP addresses, patches, and scanning. Currently, no up-to-date
     consolidated listings of IP addresses exist. Consequently, when security incidents occur OCIO
     may not get timely resolution because they are not able to contact the appropriate agency for
     action.

     b. The agency follows documented policies and procedures for external reporting to law
        enforcement authorities. (OIG’s response is underlined.) Yes or No.

     Despite the fact that the Department had not identified all incidents as discussed in our response to
     question 7a, we found that OCIO did report three known security incidents to law enforcement
     during fiscal year 2005. OCIO Cyber Security officials stated that another three incidents were
     reported to OCIO by the Federal Bureau of Investigations. However, the agencies do not follow
     USDA policies and procedures for reporting security incidents to law enforcement authorities. 26
     The policy states that the Information System Security Program Manager (ISSPM) should
     complete an intrusion report and forward it onto Cyber Security for referral to OIG. Cyber
     Security staff stated that agencies do not provide this information to Cyber Security staff. Hence,
     OCIO Cyber Security could not give us a complete count of security incidents reported to law
     enforcement for the Department even though departmental guidance requires agency ISSPMs to
     report all incidents reported to law enforcement to OCIO. OCIO Cyber Security staffs are not
     aware of all incidents reported to law enforcement because several agencies have their own law
     enforcement unit or their own forensics units and these agencies do not inform OCIO Cyber
     Security of security incidents reported to law enforcement.




25
  Audit Report No. 50099-32-FM, “Government Information Security Reform Act – Fiscal Year 2001,” August 2001 page 28.
26
  DM 3505-001, Chapter 1 – Part 1, Section 2e, “Incident Response Procedures,” dated July 15, 2004.
USDA/OIG-A/50501-5-FM                                                                                                   Page 17
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                            Exhibit A – Page 15 of 17


     c. The agency follows defined procedures for reporting to                        the    US-CERT.
        http://www.us-cert.gov. (OIG’s response is underlined.) Yes or No.

  During fiscal year 2005, as of July 27, 2005, USDA’s Cyber Security staff reported 202 network
  security incidents to US-CERT as required by its policy in the following categories:

            Category                    Name                        Total Incidents
               0         Network Defense Testing                            1
               1         Unauthorized Access                               42
               2         Denial of Service                                  5
               3         Malicious Code                                   136
               4         Improper Usage                                    14
               5         Scans/Probes/Attempted Access                      2
               6         Investigation                                      2
             Total                                                        202

  However, as stated above, on July 23, 2005, USDA converted to UTN and this conversion
  substantially degraded USDA’s incident reporting, handling, response, and oversight process
  because USDA no longer has adequate intrusion detection sensors in place for the entire network.
  The UTN implementation prevents the intrusion detection system from “seeing the vast majority of
  USDA network traffic” and an overall network view is no longer available for network security
  staff to review, analyze, and report potential incidents to Cyber Security for action. OCIO officials
  informed us that this is an issue currently being addressed by its contractor. The contractor’s
  intrusion detection system was not designed to report the number of intrusion attempts that were
  blocked.

  The Department is required by FISMA to report security incidents to US-CERT so this information
  can be forwarded to Homeland Security. Therefore, the Department needs to have an intrusion
  detection process in place that monitors its network for intrusions; report these intrusions to US-
  CERT; and ensure that immediate corrective action is taken to prevent and detect similar incidents.




USDA/OIG-A/50501-5-FM                                                                            Page 18
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                           Exhibit A – Page 16 of 17



8. Has the agency ensured security training and awareness of all employees, including
   contractors and those employees with significant IT security responsibilities? (OIG’s
   response is underlined below.) Response Categories:

      •       Rarely, for example, approximately 0-50% of the time
      •       Sometimes, for example, approximately 51-70% of the time
      •       Frequently, for example, approximately 71-80% of the time
      •       Mostly, for example, approximately 81-95% of the time
      •       Almost Always, for example, approximately 96-100% of the time

   Our review found that approximately 54 percent of USDA employees (includes employees with
   significant IT security responsibility) have sufficient security awareness training.           The
   Department’s primary vehicle for this training is the Department’s AgLearn online system. OCIO
   requires agencies to complete security awareness training prior to FISMA reporting; however
   agencies do not always comply. Therefore, the Department can not ensure that every employee
   receives the proper training. On August 5, 2005, OCIO Cyber Security sent out a memorandum to
   agency senior management informing them that security awareness and training requirements were
   not being met, and, in fact, were far behind schedule with only 21 percent reporting in AgLearn as
   of July 20, 2005. As of August 15, 2005, AgLearn showed that 66,990 of 131,271 (51 percent)
   employees had completed security awareness training. Furthermore, the AgLearn statistics did not
   coincide with training numbers reported in the FISMA, so OCIO Cyber Security requested agency
   officials to validate the training numbers and send supporting documentation to Cyber Security by
   August 16, 2005. As of August 30, 2005, one agency had not sent validation of employee and
   contractor training numbers to OCIO. The information provided showed 109,505 employees of
   which 59,334 had received security awareness training (54.18 percent). In addition, agencies
   reported 532 of the 109,505 employees had significant IT security responsibility. Because of their
   responsibilities, these employees are to receive additional training consistent with their duties.
   OCIO Cyber Security reported that role based training for employees with significant IT security is
   deficient and needs to be adequately addressed.

   Finally, our reviews have shown that agencies do not adequately track their contractors, and
   therefore, have difficulty in ensuring that they receive the required annual security training.

9. Does the agency explain policies regarding peer-to-peer file sharing in IT security awareness
   training, ethics training, or any other agency-wide training? (OIG’s response is underlined.)
   Yes or No

   USDA explains peer-to-peer file sharing policy in the IT security awareness training. Further,
   DM 3525-002, dated July 15, 2004, states that USDA has a long established policy that does not
   condone or support employees’ use of Government computers or networks for unauthorized
   purposes such as the use of peer-to-peer programs and other programs that perform these functions.

USDA/OIG-A/50501-5-FM                                                                           Page 19
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                           Exhibit A – Page 17 of 17



  Our review confirmed that peer-to-peer file sharing was addressed in the Security Literacy and
  Basics course available on AgLearn and OCIO Cyber Security’s security awareness training disk.
  The course teaches that peer-to-peer software are programs that link computers together across the
  Internet for the purpose of sharing files, music, and videos and peer-to-peer software traditionally
  bypasses security controls and client/server networks that exist in business and Government
  offices. Because peer-to-peer software bypasses the USDA network security checks and balances,
  the installation of peer-to-peer software is prohibited at USDA. However, the vehicle for ensuring
  that this message gets to all users within the Department, is the AgLearn system. Based on our
  response to question number 8 above, we question how effectively this policy is being
  implemented.




USDA/OIG-A/50501-5-FM                                                                           Page 20
Exhibit B – Audits Referenced to in the Report
                                                                         Exhibit B – Page 1 of 1




                                                                      Estimated Issue
 Audit Report No.                        Title                             Date
                       Federal Crop Insurance Corporation/Risk
   05401-14-FM      Management Agency’s Financial Statements for      November 2005
                                   Fiscal Year 2005
                     Commodity Credit Corporation’s Financial
   06401-20-FM                                                        November 2005
                      Statements for Fiscal Years 2005 and 2004
                    Forest Services for Fiscal Year 2005 Financial
   08401-5-FM                                                         November 2005
                                      Statements
                       National Resources Conservation Service
   10501-5-FM        Applications Controls – Program Contracts        November 2005
                                        System
                    Food and Nutrition Service – Fiscal Year 2005
   27401-1-FM                                                         November 2005
                                 Financial Statements
                          Management and Security Over IT
   50501-3-FM             Convergence/Common Computing                 October 2005
                                     Environment
                         Review of USDA’s Certification and
   50501-4-FM                                                          October 2005
                                 Accreditation Efforts
                       National Information Technology Center        September 21, 2005
   88501-2-FM
                     General Controls Review – Fiscal Year 2005       (actual issuance)




USDA/OIG-A/50501-5-FM                                                                      Page 21
